No. 20-740

UU aEEITIEEIESES

IN THE
SUPREME COURT OF THE UNITED STATES

JIM BOGNET, et al.,

Petitioners,
VS.

VERONICA DEGRAFFENREID, in her capacity as
Acting Secretary of the Commonwealth of Pennsylvania;
WASHINGTON COUNTY BOARD OF ELECTIONS; et al.,

Respondents.

On Petition for Writ of Certiorari
To the United States Court of Appeals for the Third Circuit

NN
CERTIFICATE OF SERVICE

 

I certify that on this 15" day of March, 2021, that the Respondent, Washington County Board of
Elections’ Brief in Opposition was served on all parties via the Court’s Electronic Filing System,
in accordance with the Court’s April 15, 2020 Order regarding filing requirements.

I declare under penalty of perjury that the foregoing is true and correct.

Executed this 15"" day of March, 2021.

Respectfully submitted,

SWARTZ CAMPBELL, LLC
By: MY

Robert J. Grimm, Esquire
PA Supreme Court ID.: 55381
Koppers Building, Floors 7 and 8
436 7" Avenue

Pittsburgh, PA 15219

(412) 560-3267
rgrimm@swartzcampbell.com
Attorneys for the Respondent,
Washington County

Board of Elections
